      DEPARTMENT OF HEALTH & HUMAN SERVICES                               Office of Inspector General

                                                                           Washington, D.C. 20201




May 28, 2010

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review at Advocates for Children and Families, Inc.
               (A-06-09-00095)


The attached final report provides the results of our limited scope review of Advocates for
Children and Families, Inc. (Advocates). This review was requested by the Administration for
Children and Families (ACF), Office of Head Start, as part of its overall assessment of Head
Start grantees that have applied for additional funding under the Recovery Act.

President Obama signed the Recovery Act into law on February 17, 2009. The Recovery Act
includes measures to modernize our Nation’s infrastructure, enhance energy independence,
expand educational opportunities, preserve and improve affordable health care, provide tax
relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

The objective of our limited scope review was to assess Advocates’ financial viability and its
capacity to manage and account for Federal funds and to operate its Head Start program in
accordance with Federal regulations.

We could not perform a fair assessment of Advocates’ financial viability because its financial
records were not always accurate. Advocates did not effectively manage and account for Federal
funds or operate its Head Start program in accordance with Federal regulations. Specifically,
Advocates (1) lacked an effective financial management system to adequately manage and
account for Federal funds, (2) did not always value or account for the non-Federal matching
portion of its budget in accordance with Federal regulations, and (3) had questionable
arrangements with an accounting consultant and auditor.
In written comments on our draft report, Advocates disagreed with our overall summary of
findings. Advocates agreed with our finding that it did not have sufficient cash to meet operating
obligations. Advocates disagreed with or failed to provide information that was relevant to the
remaining findings. Advocates did not provide any additional information that would lead us to
change our findings or recommendation.

ACF should consider the information presented in this report when assessing Advocates’
financial condition and determining whether Advocates should be awarded additional Head Start
and Recovery Act grant funding.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to report
number A-06-09-00095 in all correspondence.


Attachment


cc:
Susan K. Johnston
Regional Program Manager
Administration for Children and Families
Office of Head Start
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




RECIPIENT CAPABILITY AUDIT OF
ADVOCATES FOR CHILDREN AND
        FAMILIES, INC.




                      Daniel R. Levinson
                       Inspector General

                          May 2010
                        A-06-09-00095
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




RECIPIENT CAPABILITY AUDIT OF
ADVOCATES FOR CHILDREN AND
        FAMILIES, INC.




                      Daniel R. Levinson
                       Inspector General

                          May 2010
                        A-06-09-00095
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to P.L. 110-134, Improving Head Start for School Readiness Act of 2007, Head
Start is a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program. The Head Start program provides grants to local public and private nonprofit and for-
profit agencies to provide comprehensive child development services to economically
disadvantaged children and families.

Pursuant to the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery
Act), enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5-percent cost-of-living increase and bolster
training and technical assistance activities.

Advocates for Children and Families, Inc. (Advocates), a nonprofit agency, operates a Head Start
program that serves 3- to 5-year-old children and their families at locations in Victoria, Texas,
and surrounding counties. Advocates is funded primarily through a Federal Government grant.
During fiscal year (FY) 2009 (March 1, 2008, through February 28, 2009), ACF directly
provided grant funds to Advocates totaling $4,080,311. Advocates also received United States
Department of Agriculture funding from the State of Texas for food totaling $422,477.

Advocates received Recovery Act grant funding for FY 2010 totaling $333,341 for cost-of-living
increases and quality improvement.

OBJECTIVE

The objective of our limited scope review was to assess Advocates’ financial viability and its
capacity to manage and account for Federal funds and to operate its Head Start program in
accordance with Federal regulations.

SUMMARY OF FINDINGS

We could not perform a fair assessment of Advocates’ financial viability because its financial
records were not always accurate. Advocates did not effectively manage and account for Federal
funds or operate its Head Start program in accordance with Federal regulations. Specifically,
Advocates (1) lacked an effective financial management system to adequately manage and
account for Federal funds, (2) did not always value or account for the non-Federal matching
portion of its budget in accordance with Federal regulations, and (3) had questionable
arrangements with an accounting consultant and auditor.
RECOMMENDATION

ACF should consider the information presented in this report when assessing Advocates’
financial condition and determining whether Advocates should be awarded additional Head Start
and Recovery Act grant funding.

ADVOCATES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Advocates disagreed with our overall summary of
findings. Advocates agreed with our finding that it did not have sufficient cash to meet operating
obligations. Advocates disagreed with or failed to provide information that was relevant to the
remaining findings. Advocates did not provide any additional information that would lead us to
change our findings or recommendation. Advocates’ comments appear in their entirety as
Appendix A.
                                                  TABLE OF CONTENTS

                                                                                                                                    Page

INTRODUCTION....................................................................................................................1

          BACKGROUND ...........................................................................................................1
              Head Start Program ............................................................................................1
              Advocates for Children and Families, Inc. ........................................................1
              Requirements for Federal Grantees ...................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY .........................................................2
               Objective ............................................................................................................2
               Scope ..................................................................................................................2
               Methodology ......................................................................................................2

FINDINGS AND RECOMMENDATION.............................................................................3

          INADEQUATE FINANCIAL MANAGEMENT SYSTEM ........................................3
               Unallowable Cost for Early Head Start Consultant ...........................................3
               Board of Directors Provided with Understated Expenditure Reports ................3
               Insufficient Cash To Meet Operating Obligations .............................................4
               Questionable Adjusting Entries .........................................................................4
               Misstated Balance Sheets ...................................................................................4
               Balance Carryovers for General Ledger Account Balances ..............................5
               Lack of Internal Controls ...................................................................................5
               Misstated Tax Returns .......................................................................................5

          IN-KIND VALUATION AND REPORTING ..............................................................6
                Unallowable In-Kind Contributions ..................................................................6
                Overvalued Volunteer Time ..............................................................................6
                Overvalued Donated Space ................................................................................7

          QUESTIONABLE ARRANGEMENTS WITH
           CONSULTANT AND AUDITOR .............................................................................7
               Accounting Consultant.......................................................................................7
               Independent Auditor ..........................................................................................8

          RECOMMENDATION .................................................................................................8

          ADVOCATES COMMENTS AND OFFICE OF INSPECTOR GENERAL
           RESPONSE…………………………………………………………………………..8

APPENDIX

          ADVOCATES COMMENTS
                                       INTRODUCTION

BACKGROUND

Head Start Program

Pursuant to P.L. 110-134, Improving Head Start for School Readiness Act of 2007, Head Start is
a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program.

The Head Start program provides grants to local public and private nonprofit and for-profit
agencies to provide comprehensive child development services to economically disadvantaged
children and families, with a special focus on helping preschoolers develop the early reading and
math skills needed to be successful in school. Head Start programs engage parents in their
children’s learning and emphasize parental involvement in the administration of local Head Start
programs.

Pursuant to the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery
Act), enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly 5-percent cost-of-living increase and bolster
training and technical assistance activities.

Advocates for Children and Families, Inc.

Advocates for Children and Families, Inc. (Advocates), a nonprofit agency, operates a Head Start
program that serves 3- to 5-year-old children and their families at locations in Victoria, Texas,
and surrounding counties. Advocates is funded primarily through a Federal Government grant.
During fiscal year (FY) 2009 (March 1, 2008, through February 28, 2009), ACF directly
provided grant funds to Advocates totaling $4,080,311. Advocates also received United States
Department of Agriculture funding, called transitional pass-through payments, from the State of
Texas for food totaling $422,477.

Advocates received Recovery Act grant funding for FY 2010 totaling $333,341 for cost-of-living
increases and quality improvement.

Requirements for Federal Grantees

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that provide accurate, current, and complete disclosure of the financial results of each HHS-
sponsored project and contain written procedures for determining the reasonableness,
allocability, and allowability of costs. Grantees must maintain accounting records that are
supported by source documentation. Grantees are also required to compare outlays with budget
amounts for each award and maintain effective control over all funds, property, and other assets.
Grantees may use grant funds only for authorized purposes.

Section 642 of the Head Start Act states that a Head Start agency must document strong fiscal
controls, including the employment of well-qualified fiscal staff with a history of successful
management. Furthermore, 45 CFR § 1304.51(h) requires a grantee to establish and maintain an
efficient and effective reporting system to generate periodic reports of financial operations and
official reports for Federal authorities.

Regulations (45 CFR § 74.23) provide criteria for grantees to use in valuing and accounting for
cost sharing or matching contributions, including cash and third-party in-kind contributions. In
addition, 45 CFR § 1304.40(b)(1)(i) states that donated clothing is not allowable as match if it is
beyond the scope of the purposes of the Head Start program.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our limited scope review was to assess Advocates’ financial viability and its
capacity to manage and account for Federal funds and to operate its Head Start program in
accordance with Federal regulations.

Scope

We performed this review based on a limited scope request from ACF. Therefore, we did not
perform an overall assessment of Advocates’ internal control structure. Rather, we reviewed
only the internal controls that pertained directly to our objectives. Our review period was FY
2009.

We performed our fieldwork at Advocates’ administrative office in Victoria, Texas, during
July and August 2009.

Methodology

To accomplish our objective, we:

   •    reviewed relevant Federal laws, regulations, and guidance;

   •    reviewed Advocates’ fiscal procedures related to accounting documentation and
        preparation of financial reports;

   •    obtained Federal and local Government grant award documentation to determine
        Advocates’ Federal funding;
    •   reviewed Advocates’ financial statements for FYs 2006 through 2009; 1

    •   interviewed Advocates’ management and accounting consultant to gain an understanding
        of internal controls procedures related to accounting, procurement, and property;

    •   reviewed documentation in support of Advocates’ in-kind contributions for the fourth
        quarter of FY 2009; and

    •   reviewed Advocates’ schedule of fixed assets and confirmed its vehicle inventory.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                               FINDINGS AND RECOMMENDATION

We could not perform a fair assessment of Advocates’ financial viability because its financial
records were not always accurate. Advocates did not effectively manage and account for Federal
funds or operate its Head Start program in accordance with Federal regulations. Specifically,
Advocates (1) lacked an effective financial management system to adequately manage and
account for Federal funds, (2) did not always value or account for the non-Federal matching
portion of its budget in accordance with Federal regulations, and (3) had questionable
arrangements with an accounting consultant and auditor.

INADEQUATE FINANCIAL MANAGEMENT SYSTEM

Unallowable Cost for Early Head Start Consultant

Advocates improperly used Federal Head Start grant funds to pay a private consultant to assist in
the development and writing of an Early Head Start grant. Advocates contracted with the
consultant to provide training and technical assistance on Early Head Start in the development
and writing of the Early Head Start grant. Advocates contracted to pay the consultant $15,000
over a 30-day period for these services. In addition, as part of the contract, Advocates agreed to
provide the consultant with prepaid hotel accommodations, airfare, and ground transportation.
According to Advocates’ accounting records, it paid the consultant $7,000 of the contracted
amount as of June 2009.

Board of Directors Provided With Understated Expenditure Reports

Advocates provided its board of directors with monthly expenditure reports for FYs 2005
through 2009 that misrepresented Advocates’ actual expenses. These reports, which compare
Advocates’ actual expenses by month and FY to budgeted amounts, are prepared by the fiscal
1
 We reviewed Advocates’ audited financial statements for FYs 2006, 2007, and 2008, as well as unaudited financial
statements for FY 2009.
officer in a spreadsheet program. The amounts reported, however, were not the same as what
was recorded in Advocates’ financial management system. It appears that the amounts reported
for several expense accounts were adjusted up or down to match budgeted expenses. In FYs
2005, 2006, 2007, and 2009, the adjustments to the expense accounts on these reports resulted in
a net understatement of total expenses by $268,000, $302,000, $108,000, and $51,000,
respectively, when compared to the trial balance report for the same periods. In FY 2008, total
expenses were overstated by $28,000. As a result, Advocates’ board of directors was not
provided a true representation of actual expenses.

Insufficient Cash To Meet Operating Obligations

Advocates did not have sufficient cash to meet its FY 2009 obligations with FY 2009 grant
funds. As a result, Advocates used at least $394,944 of FY 2010 grant funds to pay for expenses
incurred in FY 2009. Of this amount, Advocates used $94,378 to reimburse its non-Head Start
bank accounts, which were drawn upon to meet salary expenses for the last pay period of the
year. Advocates used the remaining $300,566 to pay additional expenses, including $110,695 in
payroll taxes, $75,000 for the employee pension fund, and $4,725 for rent.

Questionable Adjusting Entries

Advocates posted a number of questionable adjusting entries to its general ledger on July 10,
2009, 3 days before the start of our onsite review, without any supporting documentation or
explanations accompanying the adjustments. One adjustment increased Advocates’ Head Start
cash account by $108,174. This adjustment created an ending account balance of $361 as of the
end of February 2009, which matched the ending balance shown on Advocate’s bank
reconciliation for the same month. Without this entry, the cash account would have had a
negative balance of $107,813 as of February 2009. Another adjusting entry increased
Advocates’ vehicles account by $40,443, although Advocates did not purchase or dispose of any
vehicles during the fiscal year.

The accounting consultant recommended these entries to the fiscal officer, who posted them to
the general ledger after obtaining approval from the executive director. According to the
accounting consultant, the purpose of the adjustments was to balance the books prior to our
review.

Misstated Balance Sheets

Advocates misstated the value of fixed assets reported on its audited balance sheets for FYs 2005
through 2008. Advocate’s fiscal officer told us that the accounting consultant prepared the fixed
asset report and depreciation records. However, we found this report to be outdated and
inaccurate. For example, the report showed that Advocates still owned two vans valued at
$23,456 and $20,650 that we confirmed were sold in FYs 2001 and 2007, respectively.
Inventory records for FY 2005 show that Advocates paid $65,190 for three vans that were not
reported on the consultant’s spreadsheet. We visually confirmed that these vans were part of
Advocate’s vehicle inventory. The most recent date of acquisition for any equipment item
shown on the consultant’s fixed asset report was February 11, 1997.
Balance Carryovers for General Ledger Account Balances

Advocates’ ending account balances on its general ledger at the end of one fiscal period did not
always carry over to the beginning account balances for the following period. For example,
Advocates’ Head Start cash account had an ending debit balance of $361 in February 2009.
However, the opening balance for March 2009 showed a credit balance of $781,937. The
financial consultant said that the difference was due to a problem with Advocates’ accounting
system software and that the fiscal officer had used incorrect parameters to prepare the general
ledger report.

Lack of Internal Controls

Advocates’ internal controls were inadequate because they did not always separate key duties
and responsibilities among individuals as 45 CFR § 1304.50(g)(2) requires. The regulation
states: “Grantee and delegate agencies must ensure that appropriate internal controls are
established and implemented to safeguard Federal funds in accordance with 45 CFR § 1301.13.”
Advocates authorized its fiscal officer to draw down Federal grant funds, post transactions to the
general ledger, reconcile all bank accounts except the payroll account, and prepare checks for
signature. These duties should be separated among individuals to mitigate the risk of fraud and
mismanagement; specifically, the risk that an individual with authority to write checks and
reconcile bank accounts could misuse or pilfer grant funds.

Misstated Tax Returns

Advocates submitted tax returns to the Internal Revenue Service (IRS) for FYs 2006 through
2008 with ending balances for some accounts that did not always carry forward to the following
years’ beginning balances. In addition, the balances reported for some accounts on these tax
returns appeared to be amounts that were reported in a previous fiscal year.

       •   Advocates reported the same beginning balance for its cash-non-interest-bearing
           account on its FY 2006 and 2007 tax returns. The beginning balance of $330,449 for
           FY 2006 appeared to be correct because it matched the audited financial statements.
           However, this amount appeared to be incorrect as the beginning balance on the FY
           2007 tax return because the audited financial statements indicated that the beginning
           balance should have been $104,451.

       •   Advocates reported account balances in its FY 2007 tax return that matched the year-
           end amounts from its FY 2006 audited balance sheet for “land, buildings and
           equipment,” “grants receivable,” “accounts payable and accrued expenses,”
           “unrestricted” and “permanently restricted” funds, and “total net assets.”

       •   Advocates reported $103,877 in the “grants receivables” account on its FY 2008 tax
           return. However, this amount appeared to be incorrect because Advocates’ audited
           balance sheet for FY 2008 reported “grants receivables” of $45,686.
Advocates’ accounting consultant, who signed the returns as preparer, said that he was not aware
of the errors on the returns until we brought them to his attention. He also stated that the
software program he used to prepare the returns caused the errors.

IN-KIND VALUATION AND REPORTING

Our review of Advocates’ support for in-kind contributions claimed during the fourth quarter of
FY 2009 found that Advocates overstated its match by $371,672. This represents about 31
percent of Advocates’ required match of $1.2 million for FY 2009. Advocates overstated its
non-Federal share because it (1) included in-kind contributions that did not qualify as allowable
program costs, (2) overvalued volunteer time, (3) overvalued donated space, and (4) claimed
more volunteer time than its records support.

Unallowable In-Kind Contributions

Advocates overstated its share of in-kind contributions by $269,439 for donated supplies,
volunteer services, and gifts that would not have otherwise qualified as allowable program costs
under Federal regulations. For example:

   •   Advocates included costs for food bank items donated to Head Start families valued at
       $115,286.

   •   Advocates included costs for a group of dental professionals to bring a mobile dental van
       to Advocates’ central office in Victoria to provide dental services. In-kind contributions
       included the hourly rate charged by the dental professionals for various activities
       (including driving, setting up the van, dental exams, paperwork, billing, and payroll),
       equipment, supplies, and hotel and meals. These costs were unallowable as in-kind
       because (1) Advocates did not have documentation to show that its children were
       ineligible to have these services covered by Medicaid or some other payer and (2) some
       costs were unreasonable and not necessary to accomplish Head Start program objectives.
       These services were valued at $48,565.

   •   Advocates included costs for volunteer time from its employees for activities that fell into
       the scope of the employees’ paid employment, including cleaning, laundry, and travel
       time for meetings; and volunteer time from parents of Head Start program children to
       attend Christmas programs/parties, wrap Christmas gifts, and attend Valentine’s Day
       parties and “Dad’s Day” lunches. These services were valued at $29,245.

   •   Advocates included costs for Christmas gifts donated to Head Start children valued at
       $22,865.

Overvalued Volunteer Time

We estimated that Advocates overstated its match by $32,731 because it overvalued volunteer
time. Advocates valued its volunteer time at $14.15 per hour. This was the average hourly rate,
including fringe benefits and following 90 days of service, that Advocates paid to its teacher
aides and teachers with an associate’s or bachelor’s degree. Our review of in-kind
documentation found that allowable volunteer activities typically included a child’s parent,
relative, or friend reading to the class, cleaning up classrooms, and helping with lunch. We
believed, and the Office of Head Start concurred, that Advocates was not required to hire anyone
more qualified than a teacher’s aide to adequately perform any of these activities. Accordingly,
Advocates’ volunteer time valuation should be adjusted to the hourly rate of $10.90, which
includes fringe benefits, that was paid to its teacher aides. Thus, the difference between
Advocates’ overvalued hourly rate of $14.15 and the adjusted rate of $10.90 for allowable
volunteer time donated during the fourth quarter of FY 2009 was $32,731.

Overvalued Donated Space

Advocates overstated its match by $40,256 because it overvalued donated space at some of its
center locations and central office. Advocates overvalued its donated space because it (1) did not
account for an increase to its discounted rent at one location, (2) included the cost of space it
already owned as donated space, and (3) incorrectly recorded the value of a lease for donated
land on a monthly basis instead of as a single amount for the year.

QUESTIONABLE ARRANGEMENTS WITH CONSULTANT AND AUDITOR

Accounting Consultant

Advocates did not have a written contract with its accounting consultant, and the executive
director told us that she considered the consultant to be a part-time employee. The consultant
confirmed that he had a verbal contract with Advocates. However, Advocates did not account
for the consultant as an employee or as a contractor because Advocates did not receive a
timesheet from the consultant, did not withhold payroll taxes from his pay, and did not provide
the contractor with an IRS Form 1099.

Advocates paid the accounting consultant $1,250 every 2 weeks. The director said that the
consultant actually worked 1 day per week during the school year and sporadically during the
summer. The director added that the consultant’s primary duty was to train the fiscal officer.
However, according to the consultant, he had no supervisory duties. Rather, his duties included
preparing Advocates’ tax return, recommending adjusting entries to the general ledger,
reconciling the payroll account, and maintaining the schedule of fixed assets and depreciation.
The director said that although she was with Advocates when the consultant was hired in 1997,
she could not recall how Advocates determined the consultant’s compensation.

We told the director that the Texas State Board of Public Accountancy had revoked the
consultant’s license in November 2004. The director said that she was unaware of the
revocation, that she would have ceased all business activities with the consultant if she had
known, and that she would not continue working with him.
Independent Auditor

Advocates’ independent auditor appeared to be compensated more than what was budgeted for
FYs 2007 through 2009. Advocates’ budgeted audit fees for FYs 2007 through 2009 ranged
from $20,000 to $26,000. However, the independent auditor signed a contract with Advocates in
January 2007 for $30,000 to conduct audit services each year during that same period.
Advocates did not disclose audit fee expenses to its board of directors in an expenditures report
for FYs 2007 and 2008. Moreover, Advocates incorrectly disclosed audit fee expenses of
$20,000 to its board in the expenditures report for FY 2009. According to Advocates’ general
ledger, the auditor was actually paid $27,000 in FY 2009. Advocates recorded the auditor’s fee
in FY 2009 as a debit to an “other payables” account instead of recording the audit fee as an
expense. As a result, the “other payables” account had an ending debit balance of $27,000 at the
end of FY 2009.

The independent auditor issued an unqualified opinion in her Office of Management and Budget
(OMB) Circular A-133 Single Audit Report of Advocates’ financial statements for FYs 2006 to
2008. In those same reports, the independent auditor did not identify any material weaknesses
for internal controls over financial reporting. As a result, these reports did not disclose any of
the financial reporting or internal control deficiencies discussed in this report.

RECOMMENDATION

ACF should consider the information presented in this report when assessing Advocates’
financial condition and determining whether Advocates should be awarded additional Head Start
and Recovery Act grant funding.

ADVOCATES COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, Advocates disagreed with our overall summary of
findings. Advocates agreed with our finding that it did not have sufficient cash to meet operating
obligations. Advocates disagreed with or failed to provide information that was relevant to the
remaining findings. Advocates did not provide any additional information that would lead us to
change our findings or recommendation. Advocates’ comments, which we summarize below,
appear in their entirety as Appendix A.

Unallowable Cost for Early Head Start Consultant

Advocates Comments

Advocates said that it disagreed with this finding because it implied that Advocates cannot
contract with a private consultant to assist in the development and writing of an Early Head Start
grant. Advocates also stated that we did not specify any regulation, statute, or disallowable costs
that prohibited it from paying the consultant’s fees, hotel room, and airfare.
Office of Inspector General Response

Our finding did not imply that Advocates could not contract with a private consultant to assist in
developing an Early Head Start grant, only that Advocates could not use Federal Head Start
funds for that purpose. Pursuant to 2 CFR part 230, Appendix A, to be allowable under an
award, costs must be reasonable for the performance of the award, and to be allocable, costs
must be incurred specifically for the award. In addition, ACF’s Early Head Start Questions and
Answers page from its Early Childhood Learning and Knowledge Center Web site states:
“Funds from a current Head Start grant may not be used to write and submit an Early Head Start
proposal.”

Board of Directors Provided With Understated Expenditure Reports

Advocates Comments

Advocates stated that 45 CFR § 74.53 did not require it to retain records for the periods ending
February 28, 2005, and February 28, 2006. It added that the final Forms 269 were filed for these
years on May 31, 2005, and May 31, 2006. In addition, Advocates stated that our comments
demonstrated only that the fiscal officer did not prepare the expenditure compared to budget
report from the expenditures on the trial balance generated by its system. Advocates stated this
was not a breakdown in internal controls. Advocates stated that the fiscal officer made errors
when preparing financial statements and that the fiscal officer was instructed to reissue the
statement for the current fiscal year. Advocates also commented that it did not present
inaccurate statements to the Federal Government and that all Forms 269 and 272 were filed in a
timely manner and properly reported.

Office of Inspector General Response

Advocates did not directly comment on our finding that the monthly expenditure reports
provided to its board of directors misrepresented actual expenses. Nothing in Advocates’
response explained why several expense accounts on these reports were understated or why some
accounts were adjusted up or down to match budgeted expenses.

We disagree with Advocates that the understated expenditure reports do not represent a
breakdown in internal controls. Pursuant to 2 CFR § 215.21(b), “Recipients’ financial
management systems shall provide accurate, current and complete disclosure of the financial
results of each federally-sponsored project or program …, Records that identify adequately the
source and application of funds for federally-sponsored activities …, [and a] Comparison of
outlays with budget amounts for each award.” Therefore, understated expenditure reports
presented to the board of directors represent a breakdown in Advocates’ controls over providing
accurate financial data. In addition, our finding did not relate to statements provided to the
Federal Government.
Insufficient Cash to Meet Operating Obligations

Advocates Comments

Advocates agreed that it did not have sufficient cash to meet its operating obligations, but stated
that this did not represent a breakdown in internal controls. Advocates stated that the situation
resulted from the business environment and economic conditions of the prior year. In addition,
Advocates stated that the items it paid for with FY 2010 grant funds—rent, salaries, pension, and
payroll taxes—were allowable under OMB Circular A-122.

Office of Inspector General Response

Advocates did not directly comment on paying FY 2009 expenses with FY 2010 grant funds. In
addition, we did not question the allowability of these expenses, only that it used FY 2010 grant
funds to pay FY 2009 expenses. Pursuant to 2 CFR § 215.28, “Where a funding period is
specified, a recipient may charge to the grant only allowable costs resulting from obligations
incurred during the funding period ….” Therefore, any obligations incurred in FY 2009 should
not have been paid with funds from the FY 2010 award.

Questionable Adjusting Entries

Advocates Comments

Advocates partially concurred with the statement regarding questionable adjusting entries posted
without supporting documentation on July 10, 2009. Advocates stated that the date is correct but
reflected only that the report had been generated; however, the generation of the report on that
date did not imply that entries were made on that date. Advocates stated that there was
supporting documentation for each journal entry.

Advocates did not concur with our finding that the $108,174 adjustment made to its cash account
was questionable. Advocates stated that anytime there is a difference between the reconciled
bank balance, reconciled book balance, and the general ledger, a journal entry should be made.
Advocates said that the reconciled balance showed $361 as of February 2009. Advocates said
that the general ledger reflected a balance of $107,813 and that the bank reconciliation should
have agreed with the book balance. Advocates added that the $108,174 difference between the
reconciled balance and the book balance in February 2009 represents support for the journal
entry.

Advocates did not concur with our finding on the adjusting entry that increased the vehicles
account. Advocates commented that someone could interpret the finding to mean that the fiscal
officer committed an error and that the increase could have occurred only if equipment had been
purchased during the year. Advocates further stated that the initial purchase of an asset is
recorded in an expenditure account as a debit and moved into a permanent fixed assets account at
the end of the year. Advocates stated that this entry was made to correct the fixed asset group of
accounts.
Advocates commented that it was not clear why our report stated: “The accounting consultant
recommended these entries to the fiscal officer, who posted them to the general ledger after
obtaining approval from the executive director.” Advocates added that the statement implied
that the accounting consultant was prohibited from submitting any recommendations and was not
relevant to a weakness in internal control.

Office of Inspector General Response

We did not base our finding on the questionable adjusting entries on the date in the report
heading. Rather, we based it on the line item date for the corresponding journal entry and the
date on the prepared journal entry.

We disagree with Advocates’ justification for the $108,174 adjustment made to its cash account.
First, the general ledger did not reflect a balance of $107,813 as Advocates stated in its response.
The balance was actually a negative $107,813 as of the end of February. Second, we disagree
that support for the $108,174 adjusting journal entry is the difference between the book balance
and the bank statement balance. The difference between the book balance and the bank balance
could partially represent outstanding checks and deposits that would have already been posted to
the general ledger and thus would not require an adjusting journal entry. Advocates never
provided us with a valid reason for the $108,174 adjustment made to the cash account, other than
to say that it was to balance the books prior to our review.

In regards to supporting documentation for the increase in the vehicles account, we asked
Advocates to provide supporting documentation for the journal entries. However, Advocates
was unable to provide documentation or a verbal explanation to support its justification for the
adjusting entries. In addition, we disagree with how Advocates records the initial purchase of an
asset. In accordance with FASB 117, the purchase of items such as buildings, equipment, and
vehicles that are expected to provide goods and services over a long period of time should be
reported as assets, not expenses. Depreciation for these assets should be recognized as expenses
each year. Therefore, an increase to the vehicles account should arise only when an actual
purchase has been made.

Our statement in the report about who recommended, posted, and approved adjusting entries did
not imply that the consultant was prohibited from submitting any recommendations to the fiscal
officer. However, we disagree with Advocates’ assertion that the statement was not relevant to a
weakness in internal controls. The fact that Advocates did not have documentation or a verbal
explanation to support its justification for the adjusting entries indicated that the controls over the
creation and approval of these entries were questionable.

Misstated Balance Sheets

Advocates Comments

Advocates denied the existence of any audited balance sheets referenced in our report for the
periods ending 2005 through 2008 and added that if they did exist for the periods ending 2005
and 2006, they were beyond the statute of limitations for review. Advocates said that there were
no statements called “Balance Sheet” for the periods ending 2007 and 2008. In addition,
Advocates said that the accounting consultant did not maintain support for the amount of fixed
assets reported on the purchasing officer’s schedule but had a copy of the agency’s depreciation
schedule. Advocates stated that the values of the fixed assets were correct.

Office of Inspector General Response

Advocates’ statement that balance sheets for periods ending 2005 and 206 did not exist is
incorrect. The balance sheets that Advocates claims do not exist are actually entitled “Statement
of Financial Position.” In the field of accounting, a statement of financial position is also
referred to as a “balance sheet.” Pursuant to FASB 117, a statement of financial position, also
referred to as a “balance sheet,” provides information about an organization's assets, liabilities,
and net assets. In addition, pursuant to 45 CFR § 74.53(b), “Financial records, supporting
documents, statistical records, and all other records pertinent to an award shall be retained for a
period of three years from the date of submission of the final expenditure report or, for awards
that are renewed quarterly or annually, from the date of the submission of the quarterly or annual
financial report.” In addition, subpart (e) from the same section states, that the right to access
this information is “… not limited to the required retention period but lasts as long as records are
retained.” Therefore, our review of Advocates’ balance sheets for the periods ending 2005
through 2008 was appropriate.

In addition, the accounting consultant told us that he prepared the fixed asset report because the
accounting system was not able to prepare the report. Advocate’s fiscal officer told us that the
accounting consultant prepared the fixed asset report and depreciation records. The accounting
consultant used an outdated inventory list to prepare the fixed asset report for the financial
statements. The most recent date of acquisition for any equipment item shown on the
consultant’s list was February 11, 1997. However, we obtained from Advocates’ property and
procurement officer records that showed more recent transactions that were not documented on
the consultant’s list.

Balance Carryovers for General Ledger Account Balances

Advocates Comments

Advocates disagreed with our finding that account balances on its general ledger at the end of
fiscal periods did not always carry over to the beginning balances in March. Advocates provided
an attachment with its ledger with comments that Advocates claimed provided support that the
ending balance for February 2009, $361.17, was also the opening balance for March 1, 2009.

Office of Inspector General Response

Advocates provided a copy of the general ledger with a run date of April 6, 2009, that showed
the cash account with a March 2009 opening credit balance of $781,936.57. We were also
provided general ledger copies that had been run while we were at Advocates on July 14, 2009,
that showed the cash account with a closing debit balance for February of $361.17. This report
also showed all entries made to the Head Start cash account for the month ending February 2009.
In addition, the report showed that on July 10, 2009, Advocates made two retroactive correcting
entries to its Head Start cash account for the month ending February 2009. These entries, for
which Advocates did not have support, debited the cash account for $107,582.68, which created
the ending debit balance of $361.17 for February.

Advocates did not have support for why the account opened in March with a credit balance of
$781,936.57, nor did it show what adjustment it made to change the opening balance to the
$361.17 shown on the attachment to its comments.

Our review of the cash account from previous months showed that it was not unusual for the
account to have significant negative cash balances. To illustrate, in March 2008, the cash
account opened with a negative $673,867.76 balance and closed with a negative $649,733.99
balance. In December 2008, the account closed with a negative $591,636.85 balance.

Lack of Internal Controls

Advocates Comments

Advocates did not concur with this finding and stated that there was no regulation requiring key
duties to be separated. In addition, Advocates said that it had adequate separation of key duties
to manage all agency funds and provided a synopsis of its internal controls. Advocates added
that having complete separation of all aspects of internal control would not have been cost
effective.

Office of Inspector General Response

Advocates did not have adequate separation of duties because the duties assigned to the fiscal
officer presented a risk that an individual with authority to write checks and reconcile bank
accounts could have misused or pilfered grant funds. We did not advocate a complete separation
of all internal controls. However, we believe that Advocates could mitigate the risk associated
with the duties assigned to the fiscal officer by adding compensating controls, such as secondary
review, when separation of duties is not possible or cost effective.

Misstated Tax Returns

Advocates Comments

Advocates stated that the comments in our draft report were different from the first draft.
Advocates said that we stated in the first draft that we reviewed the tax returns for FYs 2005 and
2006. Advocates added that the returns for the years ending 2007 and 2008 were not discussed
with the consultant and management and that revenues and expenses were properly reported.

Office of Inspector General Response

The only draft report we provided to Advocates was issued on November 30, 2009. We held an
exit conference with Advocates on August 14, 2009, and provided them with a written summary
of our “preliminary” findings. We verbally explained, and documented on each page, that this
summary was “preliminary” only. We further explained that our first official draft report would
follow and that Advocates would have the opportunity to comment on our findings. We believe
that what Advocates referred to as the “first draft” was the written summary of preliminary
findings.

It is correct that our summary of preliminary findings incorrectly stated that we reviewed
Advocates’ tax returns for FY 2005 and 2006. The Forms 990 that we reviewed had the years
“2005” and “2006” at the top of the pages but were actually for the tax years ending 2006 and
2007. Nonetheless, our official draft report correctly disclosed the tax years we reviewed, and
the findings we reported have not changed.

Finally, we discussed our findings related to the returns for the years ending 2007 and 2008 with
the accounting consultant and the fiscal officer during our fieldwork at Advocates. Our findings
on these tax returns did not relate to whether the revenues and expenses were reported properly.
Rather, our findings show that the misstated balances reported for several accounts on
Advocates’ tax returns indicate a breakdown in its ability to accurately report financial results.
Pursuant to 2 CFR § 215.21(b), “Recipients’ financial management systems shall provide
accurate, current and complete disclosure of the financial results of each federally-sponsored
project or program.”

Overvalued Volunteer Time

Advocates Comments

Advocates stated that because classroom volunteers were never designated as teachers or teacher
aides and they both perform the same duties, the $14.15 teacher rate is applied to both volunteer
positions. Parents of Head Start children, relatives, or friends reading to the class, teaching
lessons in the curriculum, and volunteering for other activities are the same activities the teachers
and teacher aides perform. Advocates said that because of various volunteer requirements, they
are considered to be volunteering in the same capacity as a teacher.

Office of Inspector General Response

Our assessment of Advocates’ overvalued volunteer time was based on the fact that volunteers
did not perform the types of activities that would have justified a rate of $14.15 per hour. Our
review of in-kind documentation showed that volunteers did not perform most of the activities
mentioned in Advocates’ comments, such as teaching lessons in the curriculum. Documented
volunteer activities were limited to reading to the class, cleaning classrooms, and helping with
lunch.

We do not contest Advocate’s claim that teachers and teacher aides perform the same duties,
including the duties we saw documented. However, Advocates was not required to hire anyone
more qualified than a teacher’s aide to adequately perform the duties that actually occurred.
Accordingly, we stand by our conclusion that Advocates’ volunteer time valuation should be
adjusted to the hourly rate, including fringe benefits, of $10.90 that is paid to its teacher aides.
Overvalued Donated Space

Advocates Comments

Advocates stated that at no time did it count the one and only property it owned as donated
space.

Office of Inspector General Response

On August 12, 2009, we spoke to Advocates’ property and procurement officer, who verified
that an inventory report dated July 13, 2009, showed that Advocates owned the property in
question located in Cuero, Texas. Further, according to a FY 2009 donated-space report
provided by this officer, Advocates calculated the value of this property as donated space
($1,010 per month) by multiplying the appraisal per square foot by the total square feet of the
property. The property and procurement officer told us that she was unsure why this building
was included on the donated-space report and counted as in-kind. Advocates did not provide any
additional information about this property with its written comments that would lead us to
change our finding.

Accounting Consultant

Advocates Comments

Advocates did not concur with our finding that it had a questionable arrangement with the
accounting consultant. Advocates stated that it believed that a written contract was not required
for the accounting consultant. Advocates said that the amount paid to the consultant was
approved in the annual budget and did not exceed that amount. Advocates stated that according
to OMB Circular A-122, the consultant’s fee was allowable.

Office of Inspector General Response

We did not question whether a written contract was required for the consultant or whether the
amount the consultant was compensated was allowable or exceeded the annual budget.
According to OMB Circular A-122, for a cost to be allowable it must be adequately documented.
Advocates did not provide enough adequate documentation, e.g., a contract, time sheet, record of
work performed, or other documentation to justify the amount paid to the consultant in relation
to the amount of time he actually worked. Therefore, the allowability of the costs incurred for
the accounting consultant was questionable.

Independent Auditor

Advocates Comments

Advocates stated that the arrangement with the auditor should not have been classified as
questionable. Advocates said that the auditor had a bona fide contract that included a pay rate of
$30,000 per year and that our statements demonstrated only that the fiscal officer failed to record
the correct budgeted amount and to properly classify the audit cost in the general ledger.

Advocates added that the Office of Inspector General (OIG) cannot substitute its judgment for
that of the auditor and that our comments seem to imply that the auditor should have reached the
same conclusion we did in our report and made the same citation. Advocates further stated that
the auditing standards of the auditor were more inclusive than that of OIG and that the
independent auditor was required to exercise objectivity whereas the regional staff of OIG
reported to the regional office of the Department of Health and Human Services.

Office of Inspector General Response

We did not question whether the auditor had a legitimate contract with Advocates. We
questioned the amount Advocates paid to the auditor because the compensation was for more
than what Advocates budgeted and more than what Advocates disclosed to its board of directors.

We identified significant issues that should have been detected, at least in part, by the
independent auditor. As we stated in our report, we conducted our audit in accordance with
generally accepted government auditing standards. We based the issues we identified and the
conclusions we reached on documentary and testimonial evidence gathered in accordance with
these standards. These standards provide the framework for performing high-quality audit work
with competence, integrity, objectivity, and independence. Our objectivity and independence
were not impaired during or after our audit of Advocates.
APPENDIX
           APPENDIX: ADVOCATES FOR CHILDREN AND FAMILIES, INC. COMMENTS 


             Advocates for Children and Families, Inc. 

                                 Head Start Child Development Program 

                   1908 N. Laurent St. Suite 150, P.O. Box 103, Victoria, Texas 77902 ..0103 



                                            December 11, 2009 




     Ms. Patricia Wheeler
     Regional Inspector General
       For Audit Services
     Department of Health & Human Services
     Office of Inspector General
     Office of Audit Services, Region VI
     1100 Commerce Street, Room 632
     Dallas, TX 75242

             Report Number: A-06-09-00095

     Enclosed is our response and exceptions to the Office of Inspector General's Findings and
     Recommendations dated November 30, 2009 entitled "Recipient Capability Audit of Advocates
     for Children and Families, Inc.".

     If you have questions, please contact Joyce Hyak at (361) 489-3063.

     Sincerely,

     Joyce Hyak
     Executive Director




                                                     Fax (361) 578 .. 3100           Admin. Fax (36 1) 576 ..0883
(361) 578.. 1508
                           FINDINGS AND RECOMMENDATION

We could not perfonn a fair assessment of Advocates' financial viability because its financial
records were not always accurate. Advocates did not effectively manage and account for Federal
funds or operate its Head Start program in accordance with Federal regulations. Specifically,
Advocates (1) lacked an effective financial management system to adequately manage and
account for Federal funds, (2) did not always value or account for the non-Federal matching
portion of its budget in accordance with Federal regulations, and (3) had questionable
arrangements with an accounting consultant and auditor.

ADVOCATES RESPONSE TO FINDINGS AND RECOMMENDATION

The conclusion above was based on incorrect infonnation and a limited scope. Advocates for
Children and Families, Inc. (ACFI) did not (l) lack an effective financial management system to
adequately manage Federal funds, (2) Advocates did value and account for the non-Federal
matching portion of its budget in accordance with Federal regulations, and (3) although not
relevant to an evaluation of internal control there was no questionable arrangements with an
accounting consultant and auditor.

Jurisdiction was not properly invoked.

According to the OIG this investigation was requested on April 13, 2009. It was alleged that a
request was received from the Regional Office of Administration for Children and Families. The
Regional Administrator appeared not to have knowledge of any written request for an
investigation. It appears that the OIG arbitrarily initiated the investigation. According to the
Inspector General's Act they can exam the records and financial activities ofHHS program. This
must come through a proper request from the Secretary of HHS or the Deputy Director. There is
not a Deputy Director in the Regional Office of ACF.

Jurisdiction pertaining to tax matters.

The OIG did not document its authority, if any, to exam and report upon the Agency's tax
returns. This authority rests solely with the Internal Revenue Service. The IRS has not found any
exceptions to our tax returns. According to the Tax Code and the Code of Federal Regulations
we were not required to maintain tax returns beyond three years after the filing date. We must
note that the OIG did not specify any particular tax fonn in its findings.
                                                  1
                             ACFI Report Number: A-06-09-00095
Lack of jurisdiction to interview consultant.

Although the OIG claimed that the consultant was not an employee, members of the team
interviewed the individual referred to as the accounting consultant. Once jurisdiction is invoked
the OIG has only authority to interview employees of the Agency. It appears the OIG considered
the consultant an employee for the purpose of conducting an interview, but they stated they were
unsure.

Irrelevant alleged questionable arrangements.

The OIG included in their report and relied upon irrelevant parameters to conclude a lack of
internal controls. Not only did the OIG fail to prove that the Agency had questionable contract
arrangements, these arrangements did not rise to the level of an internal control weakness.

Lack of evidence to support weaknesses in internal control.

The OIG failed to present evidence to support their conclusion that with the internal controls
currently in effect, the Agency could not adequately manage Federal funds. The Agency has a
triennial Federal Monitoring Review. At no time did they report on mismanagement of Federal
funds. The Agency has an annual audit each year.

Lack of separation of duties.

The OIG claimed that there was not enough separation of duties by key personnel. There was
adequate separation, as outlined below, to manage all funds of the Agency. In considering the
internal control environment, the OIG failed to consider cost versus benefits. To have complete
separation of all aspects of internal control would not have been cost effective. Any additional
personnel needed for a one hundred percent separation of all activities would have been charged
to administrative expenses. Presently the administrative expense is limited to fifteen percent of
the budget. There is no proof that the Agency would have benefited, whereas, there was no
history of prior mismanagement of federal funds.

Lack of objectivity on behalf of the OIG.

In an interview with one of the consultants, he pointed out there is a prior and current adversarial
                                               2

                                ACFI Report Number: A-06-09-00095 

role with some members of the OIG's review team. There is an ongoing contract dispute with a
prior program whereas the Regional Office pennitted the grantee to spend over $100,000 to
defend itself against wrongful tennination ofthe consultant's contract by this grantee.


Unfair Disclosure

According to the consultant, the OIG was well aware of one of the consultant's ongoing
investigations by the Texas State Board of Public Accountancy (The Board). The OIG provided
and interviewed that grantee's lawyer. One of the Board's attorneys, at the time, was a partner
with the law finn that is representing the grantee. At that time the consultant provided various
documents to the OIG. The OIG did not disclose this infonnation to Advocates. As stated below,
the consultant requested through the courts to have the final opinion of the action of the Board
published. This was done over the objection of the Texas State Board of Public Accountancy.
The opinion by the appellate court in 2008 did not reverse the certificate revocation but it
became landmark because it prohibited the Texas State Board of Public Accountancy from
collecting legal fees. As published the attorney for the consultant failed to appear at the initial
hearing.



INADEQUATE FINANCIAL MANAGEMENT SYSTEM

Unallowable Cost for Early Head Start Consultant

Advocates improperly used Federal Head Start grant funds to pay a private consultant to assist in
the development and writing of an Early Head Start grant. Advocates contracted with the
consultant to provide training and technical assistance on Early Head Start in the development and
writing of the Early Head Start grant. Advocates contracted to pay the consultant $15,000 over a
30-day period for these services. In addition, as part of the contract, Advocates agreed to provide
the consultant with prepaid hotel accommodations, airfare, and ground transportation. According
to Advocates' accounting records, it paid the consultant $7,000 of the contracted amount as of
June 2009.

Response

This seems to imply that Advocates cannot contract with a private consultant to assist in the
development and writing of an Early Head Start grant. The consultant's contract stipulated a
training of staff. The finding above did not specify any regulation, statue or disallowable costs
that prohibited us from paying the consultant, his hotel room and airfare. This condition implied
                                                3

                             ACFI Report Number: A-06-09-00095 

that Advocate's was prohibited from paying the airfare (prepaid) in advance; although all airfare
is paid before you board the plane, hotel accommodations and ground transportation. It appears
that the consultant was given a travel advance until he provides documentation for his actual
cost. The OIG did not state nor present any evidence that the contract with the consultant and
subsequent payment was a breakdown in internal control.

Board of Directors Provided with Understated Expenditure Reports

Advocates provided its board of directors with monthly expenditure reports for FYs 2005
through 2009 that misrepresented Advocates' actual expenses. These reports, which compare
Advocates' actual expenses by month and FY to budgeted amounts, are prepared by the fiscal
officer in a spreadsheet program. The amounts reported, however, were not the same as what
was recorded in Advocates' financial management system. It appears that the amounts
reported for several expense accounts were adjusted up or down to match budgeted expenses.
In FYs 2005, 2006, 2007, and 2009, the adjustments to the expense accounts on these reports
resulted in a net understatement of total expenses by $268,000, $302,000, $} 08,000, and
$51,000, respectively, when compared to the trail balance report for the same periods. In FY
2008, total expenses were overstated by $28,000. As a result, Advocate's board of directors
was not provided a true representation of actual expenses.

Response

Due to the Federal Statue 45 CFR 74.53, the Agency was not required to retain records for the
periods ending February 28, 2005 and February 28, 2006. The final Form 269's were filed for
these years on May 31 , 2005 and May 31, 2006. The comments above only demonstrate that
the Fiscal Officer did not prepare the expenditure compared to budget from the expenditures
on the Trial Balance generated by the system. This was not a breakdown in internal control.
This represented errors in the preparation of financial statements by the fiscal officer and
these errors were discovered prior to arrival of the OIG. The Fiscal Officer was instructed to
reissue the statements for the current fiscal year. We do have checks and balances in place.


At no time did we present inaccurate statements to the Federal Government. All of the Forms
269 and 272 were timely filed and the expenditures properly reported. These reports were
reviewed by numerous federal monitors and there were no exceptions. Each year we reported
on Form 269, the expenditures did not exceed the grant award.


                                            4

                             ACFI Report Number: A-06-09-00095 

Insufficient Cash to Meet Operating Obligations

Advocates did not have sufficient cash to meet its FY 2009 obligations with FY 2009 grant
fimds. As a result, Advocates used at least $394,944 of FY 20 I 0 grant funds to pay for expenses
incurred in FY 2009. Of this amount, Advocates used $94,378 to reimburse its non-Head Start
bank accounts, which were drawn upon to meet salary expenses for the last pay period of the year.
Advocates used the remaining $300,566 to pay additional expenses, including $110,695 in payroll
taxes, $75,000 for the employee pension fund, and $4,725 for rent.

Response

The comments mentioned above do not represent a breakdown in internal control. This
represents the business environment and economic condition for a prior year. The Agency for
years paid one hundred percent of all full-time eligible employees health insurance. The Agency
paid one hundred percent of employee's pension, the cost of food for the Child and Adult Care
Food Program experienced sharp increases along with other costs such as rent. Yes, this is a
condition but this condition was not brought about because there was no segregation of duties.


The amounts charged to rent, salaries, pension and payroll taxes are all allowable under OMB A­
122.

Questionable Adjusting Entries

Advocates posted a number of questionable adjusting entries to its general ledger on July 10,
2009, 3 days before the start of our onsite review, without any supporting documentation or
explanations accompanying the adjustments.

Response

The above statement is partially correct and partially incorrect. The July 10,2009 date is the date
that is in the accounting software system. Anytime a report is generated, regardless of the period,
the current date is embedded in the heading of the report. This date does not imply that entries
were made on that day. This is an activity that should have been done regardless of a visit by the
reviewers. It is the Agency's policy to prepare a self assessment before a review from an outside
entity. It would be negligent on any personnel to see a discrepancy or deficiency and not correct
it. The OIG is implying that no correction should have been made to the general ledger. There is
no support for this assumption. There is supporting documentation for each journal entry.


                                             5

                              ACFI Report Number: A-06-09-00095 

Questionable Adjusting Entries

 One adjustment increased Advocates' Head Start cash account by $108,174. This adjustment
created an ending account balance of $361 as of the end of February 2009, which matched the
ending balance shown on Advocate's bank reconciliation for the same month. Without this entry,
the cash account would have had a negative balance of$107,813 as of February 2009.

Response

Anytime there is a difference between the reconciled bank balance, reconciled book
balance, and the general ledger this calls for a journal entry. This entry is supported
by the mathematical difference between the book balance and the reconciled balance.

This reconciliation showed a balance of $361 as of February 2009. The general ledger
reflected a balance of $107,813. The OIG's team of seven reviewed the bank
reconciliation also and did not find any discrepancies. The bank reconciliation should
agree with the book balance. It is plain that the difference of $108,174 between the
reconciled balance and the book balance at February 2009 represents support for the
journal entry.

The documentation reflected that the journal entry was prepared by the fiscal officer
and approved by the highest level in management, the Executive Director.

The bank reconciliation was signed by the fiscal clerk, the fiscal officer and the
executive director.

The OIG omitted that one of the strongest components of internal control centers on
monthly bank reconciliations. The Agency reconciles all accounts on a monthly basis.

 Questionable Adjusting Entries

Another adjusting entry increased Advocates' vehicles account by $40,443, although
Advocates did not purchase or dispose of any vehicles during the fiscal year.

Response

A lay person or uninformed individual could interpret the comment above as the fiscal officer
committed an error by posting $40,443 to the vehicles and the only reason this could have been
                                           6
                            ACFI Report Number: A-06-09-00095
done is if the Agency purchased equipment during the current year. The initial purchase of fixed
assets is recorded in an expenditure account as a debit. At the end of the year, qualifying assets
are moved from the expenditures category and into a permanently fixed assets account. This is a
common entry for an Agency that maintains their books in accordance with F ASB 117. This
entry was made to correct the fixed asset group of accounts.


A questionable adjusting entry should not give rise to a weakness in internal control and this was
not a questionable entry. On many occasions the fiscal officer was reticent when it came to
explaining the record keeping of the Agency to the OIG.

Questionable Adjusting Entries

The accounting consultant recommended these entries to the fiscal officer, who posted them to
the general ledger after obtaining approval from the executive director.

Response

Again, it is not clear as to the purpose of the above statements. It is implied that the consultant
was prohibited from sUbmitting any recommendations. The statement is not relevant to and
does not describe a weakness in internal control. The above entry was prepared by the fiscal
officer and approved by the executive director.


Only if the accounting consultant prepared and approved entries for posting would there be a
breakdown in internal control.


Questionable Adjusting Entries

According to the accounting consultant, the purpose of the adjustments was to balance the
books prior to our review.

Response

It is not plausible for the consultant to make such a statement. The consultant is familiar with
the MIP fund accounting software and like most accounting software, no entry can be posted
to the ledger unless there is a balancing set of entries. According to this procedure, our books
are never out of balance because the system will not accept any entry unless there is an offset.


                                              7

                               ACFI Report Number: A-06-09-00095 

Misstated Balance Sheets

Advocates misstated the value of fixed assets reported on its audited balance sheets for FY's
2005 through 2008.

Response

The referenced audited balance sheets do not exist and the Agency did not prepare any balance
sheets. If they did exist for the periods ending 2005 and 2006 they are beyond the statue of
limitation for review. For the periods ending 2007 through 2008 there were no statements
captioned "Balance Sheet". It appears that the OIG personnel has never performed an audit
with adherence to FASB 117. If an investigation is held as to the jurisdiction and the authority
given the OIG for this type of review it will confirm that they were not properly engaged.

Misstated Balance Sheets

The support for the amount of fixed assets reported is a schedule maintained by the accounting
consultant. However, we found this schedule to be outdated and inaccurate. For example, the
schedule showed that Advocates still owned two vans valued at $23,456 and $20,650 that
we confirmed were sold in FYs 2001 and 2007, respectively

Response

The above statement is factually incorrect. The fixed asset schedule is maintained by the
purchasing officer in accordance with CFR 45 Part 74 and not the accounting consultant. The
consultant had a copy of the Agency's depreciation schedule. This schedule showed the value
of the two vans were $0 and $0 respectively because they were fully depreciated instead of
$23,456 and $20,650. To determine the net book value of assets, depreciation is deducted from
costs. Technically, value no longer exists. There is nothing on any schedule that gives
ownership to the consultant.

Misstated Balance Sheets

Inventory records for FY 2005 show that Advocates paid $65,190 for three vans that were not
reported on the consultant's spreadsheet. We visually confirmed that these vans were part of
Advocate's vehicle inventory. The most recent date of acquisition for any equipment item
shown on the consultant's schedule was February 11, 1997.

Response

                                              8

                               ACFI Report Number: A-06-09-00095 

Again there is no spreadsheet that is identified as the consultant's. These three vans appeared
on the Agency's list of fixed assets. No depreciation was charged to any grant award. The
purchasing officer gave the OIG staff a detailed list of all fixed assets.


Balance Carryovers for General Ledger Account Balances

Advocates' ending account balances on its general ledger at the end of one fiscal period did not
always carry over to the beginning account balances for the following period. For example,
Advocates' Head Start cash account had an ending debit balance of $361 in February 2009.
However, the opening balance for March 2009 showed a credit balance of $781,937. The
financial consultant said that the difference was due to a problem with Advocates' accounting
system software and that the fiscal officer had used incorrect parameters to prepare the general
ledger report.

Response

I disagree with all of the above statements. The evidence did show that the ending balance
carried over to the beginning March balance. "Advocates" Head Start cash account had an
ending balance at the end of February 2009 and not "in" February 2009. The opening balance
was $361 for March 2008 and not a credit balance of $781,937. The OIG acknowledged the
receipt of the correct ledger account but seemingly they decided to ignore it. See Exhibit with
a run date of July 11, 2009. This Exhibit firmly supports that the ending balance at February
28, 2009 was the beginning balance for March 1, 2009.


Lack of Internal Controls

Advocates' internal controls were inadequate because they did not always separate key duties
and responsibilities among individuals as 45 CFR § 1304.50(g) (2) requires. The regulation
states: "Grantee and delegate agencies must ensure that appropriate internal controls are
established and implemented to safeguard Federal funds in accordance with 45 CFR § 1301.13."
Advocates authorized its fiscal officer to draw down Federal grant funds, post transactions to the
general ledger, reconcile all bank accounts except the payroll account, and prepare checks for
signature. These duties should be separated among individuals to mitigate the risk of fraud and
mismanagement; specifically, the risk that an individual with authority to write checks and
reconcile bank accounts could misuse or pilfer grant funds.

Response

The OIG conjectured that Advocates' internal controls were inadequate because they did not
always separate key duties and responsibilities and that Advocates authorized its fiscal officer to
                                              9

                               ACFI Report Number: A-06-09-00095 

draw down Federal grant funds, post transactions to the general ledger, reconcile all bank 

accounts except payroll account and prepare checks for signature. There is no regulation that 

states that key duties must be always be separated and the duties described above do not 

represent key duties. It is highly unlikely that anyone within the accounting department could 

misuse or pilfer funds. The agency does not prepare manual checks and all checks require two 

signatures. All disbursements of federal funds require the signature of two board members or 

their facsimile signature. This stamp is kept separate and apart from accounting personnel under 

lock and key. 



Below is a brief synopsis of internal control. 



Cash Receipts: 


The fiscal officer determines the amount of the draw down based on the amount of payables and 

payroll. 


Then he obtains authorization from the executive director. 


Then there is an electronic transfer of funds from the Department of HHS to the Agency's 

designated bank account. 


These funds cannot be redirected or deposited in any other account 


Then an entry is made to record the funds on the books. 


There is no manual check issued for draw down to the Agency which would have required a 

manual deposit. 


Every quarter HHS requires the Agency to file Form 272. On this form the detail of all deposits 

are posted to this form and it must match the bank deposits. 


Disbursements: 


The Agency has a strong internal control because of the following procedures. 


Center managers, employees, and others determine their procurement needs. 


A purchase requisition is prepared and submitted for budget approval. 


If approved, the purchase is then submitted to the executive director for approval or disapproval. 


                                                   10 

                               ACFI Report Number: A-06-09-00095 

Then a purchase order is issued upon approval.

The purchasing officer issues a purchase order and the necessary bids if required are obtained. 


Upon delivery a receiving slip is prepared or the pink copy of the purchase order serves as the 

receiving slip. 


All three items are matched with the invoice before payments. 


Approval for payments is obtained. 


Then a system check is prepared. 


The checks require two board members signatures. 


Payroll 


Over 75 percent of the federal budget is payroll. As noted the payroll account is reconciled by 

someone independent of payroll responsibilities. There were no weaknesses noted in these
procedures.

Misstated Tax Returns

Advocates submitted tax returns to the IRS for FY s 2006 through 2008 with beginning balances
for some accounts that did not always equal the prior years' ending balances. In addition, the
balances reported for some accounts on these tax returns appear to be amounts that were
reported in a previous fiscal year.

• Advocates reported the same beginning balance for its cash-non-interest bearing account on its
FY 2006 and 2007 tax returns. The beginning balance of $330,449 for FY 2006 appears to be
correct because it matched the audited financial statements. However, this amount appears to be
incorrect as the beginning balance on the FY 2007 tax return because the audited financial
statements indicate that the beginning balance should have been $104,451.

• Advocates reported account balances in its FY 2007 tax return that matched the year end
amounts from its FY 2006 audited balance sheet for "land, buildings and equipment", "grants
receivable", "accounts payable and accrued expenses", "unrestricted" and "pennanently
restricted" funds, and "total net assets". Advocates reported $103,877 in the "grants receivables"
account on its FY 2008 tax return. However, this amount appears to be incorrect because
Advocates' audited balance sheet for FY 2008 reported "grants receivables" of$45,686.

Response

These comments are different from the first draft. In the first draft the 0 IG stated they reviewed
the returns for FY 2005 and FY 2006.
                                             11 

                              ACFI Report Number: A-06-09-00095 

The OIG does not have subject matter jurisdiction over the completeness and acceptance of IRS
matters. 



The OIG did not specify the type of return (941, 990, W-3 or 1098) 


All returns have been accepted and approved by the IRS. 


There were no requirements that the returns agree to the audit report. 


The OIG did not receive the returns from the Agency. 


The retention period for the years ended February 28, 2005 and 2006 had expired. 


Revenues and expenses, the main focus of the return, were not duplicated from year to year. 


The consultant was not paid to prepare the returns. 


There has not been an open record request for any return. 


This review was outside of the scope year 2009. 


Misstated Tax Returns 


Advocates' accounting consultant, who signed the returns as preparer, said that he was not aware 

of the errors on the returns until we brought them to his attention. He also stated that the
software program he used to prepare the returns caused the errors.

Response

This seems to be a pattern to highlight activities of the consultant. This comment might have a
place in a different report and venue but not in this report. Although the comments are not
relevant and were not listed under the caption "lack of internal control" it serves to distract us
from properly responding to the relevant issues. The revenues and expenses were properly
reported. The Internal Revenue Service accepted the returns with the alleged transition of
Assets, Liabilities, and Net Assets. The returns were beyond the statue of limitation for review
by the public, the IRS, and any other entity. The Returns for the years ending 2007 and 2008
were not discussed with the consultant and management. The returns were properly prepared
and the OIG did not specify any particular form.


IN-KIND VALUATION AND REPORTING
                                             12 

                              ACFI Report Number: A-06-09-00095 

Our review of Advocates' support for in-kind contributions claimed during the fourth quarter of
FY 2009 found that Advocates overstated its match by $371,672. This represents about 31
percent of Advocate's required match of $1.2 million for FY 2009. Advocates overstated its
non-Federal share because it (l) included in-kind contributions that did not qualify as allowable
program costs, (2) overvalued volunteer time, (3) overvalued donated space, and (4) claimed
more volunteer time than its records support.

Unallowable In-kind Contributions

Advocates overstated its share of in-kind contributions by $269,439 for donated supplies,
volunteer services, and gifts that would not have otherwise qualified as allowable program costs,
as Federal regulations require. For example, Advocates included costs for:

   • 	 food bank items donated to Head Start families valued at $115,286;

   • 	 a group of dental professionals to bring a mobile dental van to Advocates' central office
       in Victoria to provide dental services. In-kind contributions included the hourly rate
       charged by the dental professionals for various activities (including driving, setting up the
       van, dental exams, paperwork, billing, and payroll), equipment, supplies, and hotel and
       meals. These costs were unallowable as in-kind because (1) Advocates did not have
       documentation to show that its children were ineligible to have these services covered by
       Medicaid or some other payer, and (2) some costs were unreasonable and not necessary
       to accomplish Head Start program objectives. These services were valued at $48,565;

   • 	 volunteer time from its employees for activities that fall into the scope of the employee's
       paid employment, incl uding cleaning, laundry, and travel time for meetings; and
       volunteer time from parents of Head Start program children to attend Christmas
       programs/parties, wrap Christmas gifts, and attend Valentine's Day parties and "Dad's
       Day" lunches, valued at $29,245; and

   • 	 Christmas gifts donated to Head Start children valued at $22,865.

Overvalued Volunteer Time

We estimate that Advocates overstated its match by $32,731 because it overvalued volunteer
time. Advocates valued its volunteer time at $14.15 per hour. This is the average hourly rate,
after 90 days of service, with fringe benefits, that Advocates paid to its teacher aides and
teachers with an associate's and bachelor's degree. Our review of in-kind documentation
found that allowable volunteer activities typically included a child's parent, relative, or friend
reading to the class, cleaning up classrooms, and helping with lunch. We believe, and the
Office of Head Start concurs, that Advocates would not require hiring anyone more qualified
than a teacher's aide to adequately perform any of these activities. Accordingly, Advocates'
volunteer time valuation should be adjusted to the hourly rate of $10.90 that is paid to its
teacher aides, including fringe benefits. Thus, the difference between Advocates' overvalued
hourly rate of $14.15 and the adjusted rate of $10.90 for allowable volunteer time donated
during the fourth quarter of FY 2009 amounts to $32,731.
                                             13
                              ACFI Report Number: A-06-09-00095
Response

Classroom volunteers are never designated as teachers or teacher-aides. Since there is not a
division of duties in the classroom between teacher and teacher-aides, therefore the $14.15
teacher rate is applied to both volunteer positions. The teacher in the classroom and the
teacher-aide in the classroom perform the exact same duties, regardless of their educational
background or their status in life. Parents of Head Start children, relatives or friends reading
to the class, teaching lessons in the curriculum, circle time, arrival time activities, learning
centers and helping to serve lunch which is exactly what the teacher and teacher-aides do.
Many of our volunteers have been hires as classroom staff and those that have an AA are
hired as teachers in the classroom. Due to the requirement that volunteers have child
development training prior to working in the classroom and all the necessary requirements to
be with children, they are considered to be volunteering the capacity of teacher.


Overvalued Donated Space
Advocates overstated its match by $40,256 because it overvalued donated space at some of its
center locations and central office. For example, Advocates overvalued its donated space
because it (l) did not account for a decrease in the value of donated space when its rent expense
increased at one location; (2) included the cost of space it owned as donated space, and (3)
incorrectly recorded the annual value of a lease for donated land on a monthly basis instead of as
a single amount for the year.

Response

At no time did Advocates count the one and only property they own as donated space. After
carefully reviewing the in-kind documentation we have found no evidence of that occurring.

The only donated land that Advocates uses is the donated land from HUD Senior Citizens
Community of Cuero, Texas which also has donated the use of the portable building for a Head
Start Center and the Waelder Independent School District property with a Head Start Center
portable building on the property. Only the monthly rate for both sites has been applied as in­
kind for these two properties.

The one property that had an increase in rent of $50.00 was not a substantial amount for it to
have made a difference in the in-kind that was counted. Therefore, a decrease in in-kind was not
necessary.
                                                 14
                                 ACFI Report Number: A-06-09-00095
QUESTIONABLE ARRANGEMENTS WITH CONSULTANT AND AUDITOR

Accounting Consultant

Advocates' does not have a written contract with its accounting consultant and the executive
director told us that she considers the consultant to be a part-time employee. The consultant
confinned that he has a verbal contract with Advocates. However, Advocates does not account
for the consultant as an employee or as a contractor because Advocates does not receive a
timesheet from the consultant, does not withhold payroll taxes from his pay, and does not
provide the contractor with an IRS Form 1099.

Advocates paid the accounting consultant $1,250 every 2 weeks. The director said that the
consultant actually works I day per week during the school year and sporadically during the
swnmer. The director added that the consultant's primary duty is to train the fiscal officer.
However, according to the consultant, he has no supervisory duties. Rather, his duties include
preparing Advocates' tax return, recommending adjusting entries to the general ledger,
reconciling the payroll account, and maintaining the schedule of fixed assets and depreciation.
The director said that although she was with Advocates when the consultant was hired in 1997,
she could not recall how Advocates determined the consultant's compensation.

We told the director that the Texas State Board of Public Accountancy had revoked the
consultant's license in November 2004. The director said that she was unaware of the revocation,
that she would have ceased all business activities with the consultant if she had known, and that
she would not continue working with him.

Response

No written contract is required and the OIG failed to cite the appropriate statue. This
arrangement does not rise to the level of being questionable. This amount is approved in the
annual budget. It does not exceed the budgeted amount. According the OMB A-122 this is an
allowable cost. Although not relevant, the Agency paid the consultant at a rate of $2,500.00 per
month instead of$I,250.00 every two weeks. The consultant was not hired to audit the books of
the Agency, therefore his civil matters were not relevant. The consultant provided us with
evidence that the Board Order was reversed in part and remanded back to the Board in 2008. The
consultant has provided us with documentation that he is eligible to apply for reinstatement of
his certificate. Even without a CPA certificate, the consultant is qualified to serve in the capacity
of a fiscal consultant.

Response to revocation comment.
The comments that "[ w]e told the director that the Texas State Board of Public Accountancy had
revoked the consultant's license in November 2004. The director said that she was unaware of the 

                                               15 

                              ACFI Report Number: A-06-09-00095 

revocation, that she would have ceased all business activities with the consultant if she had
known, and that she would not continue working with him" have no place in this report. It serves
to be inflammatory, irrelevant and makes the report burdensome and cumbersome. This
statement seems to be bias due to the fact that there was no nexus to the separation of duties and
other aspect of internal control. The consultant stated that a revocation does not revoke all the
knowledge needed to obtain the original certificate.

It is implied, as was done on other occasions, that the consultant should have informed the
executive director of all his civil proceedings. After further investigation I determined that the
consultant was not employed in the capacity of an independent auditor therefore there was no
requirement to be notified if a certificate was revoked, expired or suspended. During this period
the consultant never used the designation "CPA" behind his name and the consultant never
considered himself an accountant. I have viewed a redacted document whereas the consultant
instructed his lawyer to publish the final resolution of the Texas State Board's procedure that
went all the way to the appellate courts in 2008. This satisfied notification if one was required. I
have reviewed a document whereas the consultant is eligible to apply for reinstatement of his
certificate.

According to the consultant he has an ongoing retainer with a law firm in Austin. The purpose of
the retainer is to assure that he is constantly in compliance with all applicable rules and
regulations.

Independent Auditor

Advocates' independent auditor appeared to be compensated more than what was budgeted for
FYs 2007 through 2009. Advocates budgeted audit fees for FYs 2007 through 2009 ranged from
$20,000 to $26,000. However, the independent auditor signed a contract with Advocates in
January 2007 for $30,000 to conduct audit services each year during that same period.
Advocates did not disclose audit fees expenses to its board of directors in an expenditures report
for FYs 2007 and 2008. Moreover, Advocates incorrectly disclosed audit fee expenses of
$20,000 to its board in the expenditures report for FY 2009. According to Advocates' general
ledger, the auditor was actually paid $27,000 in FY 2009. Advocates recorded the auditor's fee in
FY 2009 as a debit to an "other payables" account instead of recording the audit fee as an
expense. As a result, the "other payables" account had an ending debit balance of $27,000 at the
end of FY 2009.

Response:

                                             16
                              ACFI Report Number: A-06-09-00095
The arrangement with the auditor should not have been classified as a questionable arrangement.
The auditor had a bonafide contract to be paid at the rate of $30,000.00 per year. The above
statements only demonstrated that the fiscal officer failed to properly record the correct budgeted
amount and to properly classify the audit cost in the general ledger. His competence to properly
record accounting entries does not give rise to a weakness in internal control. At no time did any
of the federal reviewers deem him as not being qualified.


Independent Auditor

The independent auditor issued an unqualified opinion in her OMB Circular A-133 Single Audit
Report of Advocates financial statements for FY s 2006 to 2008. In those same reports, the
independent auditor identified no material weaknesses for internal controls over financial
reporting. As a result, these reports did not disclose any of the financial reporting or internal
control deficiencies discussed in this report.

Response

The OIG claimed the scope of their review was for FY 2009. This period covers March 1, 2008
through February 28, 2009. For prior years the audit report reflected the correct balances. The
audit report for the period ending February 28, 2009 was issued on November 24, 2009.
Therefore the comments above are premature and the OIG cannot substitute their judgment for
that of the auditor. The above comments by the OIG seem to imply that the auditor should have
reached the same conclusion and made the same citation. Almost all of the OIG comments do
not give rise to weaknesses in internal control.

The auditing standards perfonned by the auditor are more inclusive than that of the OIG. The
staff of the OIG is employed by the government whereas as the independent auditor is not
employed by the government nor the Agency as staff. The independent auditor must exercise
objectivity whereas the Regional staff of the OIG was reporting to the Regional Office of the
Department of Health and Human Services.

RECOMMENDATION

ACF should consider the infonnation presented in this report when assessing Advocates'
financial condition and detennining whether Advocates should be awarded additional Head
Start and Recovery Act grant funding.


                                             17 

                              ACFI Report Number: A-06-09-00095 

RESPONSE TO RECOMMENDAnON

The OIG did not present substantial evidence to support their claim that Advocates system of
internal control was lacking pertaining to the safeguarding of HHS assets and resources. Ninety
percent of the comments used to support their claims did not pertain to a breakdown in internal
control but only served to create a distraction from the ones that might have had merit.
Therefore the conclusion reached was capricious and arbitrary.




                                            18 

                             ACFI Report Number: A-06-09-00095 

                                                  Advocates for Children and Families, Inc.
Report Time: 13:09:56                                           General Ledger
Report Date : 07/11/09                              For March, 2009 Through March , 2009                                         Page:      1


                                                                            Batch    _DOcument_ _
Account COde              Account Title / Description             FY   PD   Number   Number   Date     Debit                 Credit


1000            Cash in Bank - Non-Federal
                            Opening Balance                                                                         0.00
                            CORRECT ENTRI ES                      09   01   JE464A   JE464A   071009              952 . 52
                            CORRECT ENTRIES                       09   01   JE464A   JE464A   071009                           114,127 . 07
                            CORRECT ENTRIES                       09   01   JE465    JE465    071009       114,127.07
                            CORRECT ENTRIES                       09   01   JE465    JS465    071009                                  952.52


                            Transaction Totals                                                             115,079.59          115,079.59


                            Current Balance                                                                         0.00


1010            Cash in Banlt-HS
                            Opening Balance                                                                       361.17
                            REC GRANT.06CH0495/13 3/3/09          09   01   RR1318   01/13    030909       354,000.00
                            REC GRANT.06CH0495/13 3/9/09          09   01   RRl319   02/13    030909           76,000.00
                            REC GRANT.06CH0495/13 3/12/09         09   01   RR1321   03/13    031209       206,000.00
                            REC GRANT.06CH0495/13 3/26/09         09   01   RR1324   04/13    032709       107,000.00
                            TR2 DEP.1085 SNEED 2/24-25/09         09   01   RR1315   1085     030409               62 . 83
                            DEP~1086   OTTO PHONE REIMB           09   01   RR1315   1086     030409                0.25
                             LICENSING FEE TEXAS DEPT             09   01   AC6495   23132    022409                                  929.00
                             c)A FOR MOLINA HILDA COUNCIL         09   01   AC6495   23133    022409                                  325.00
                            CDA FOR ALVARADO REBECCA COUNC        09   01   AC6495   23134    022409                                  325.00
                            HLTH/DNTL/VISION FEB 09 UNITED        09   01   AC6495   23135    022409                                  428.21
                            HLTH/DNTL/VISION FEB 09 UNITED        09   01   AC6495   23135    022409                                  851.75
                            HLTH/DNTL/VISION FEB 09 UNITED        09   01   AC6495   23135    022409                             3,057.11
                             HLTH/DNTL/VISION FEB 09 UNITED       09   01   AC6495   23135    022409                            41,647.49
                             LP.T79PXV RENEWAL VICTORIA TAX       09   01   AC6495   23136    022409                                   52.80
                             LP.T17HHP RENEWAL VICTORIA TAX       09   01   AC6495   23137    022409                                   52.80
                             TRANSFER HSP TO GEH ACT              09   01   AC6475   23139    030109                            40,000.00
                             PR.5 PPE 02/22/09 PYRLL TRNSF        09   01   AC6475   23140    030109                            55,310.73
                             TRANSFER HSP TO USDA ACT             09   01   AC6475   23141    030109                            54,377 . 88
                             PR.2 PPE 01/11/08 AMERICAN           09   01   AC6475   23142    030109                                   65.00
                             PR.2 PPE 01/11/08 AMERICAN           09   01   AC6475   23142    030109                                  125.00
                             PR.5 PPE 02/22/09 AMERICAN           09   01   AC6475   23143    030109                                   65.00
                             PR~5   PPE 02/22/09 AMERICAN         09   01   AC6475   23143    030109                                  125.00
                             PR~4   PPE 02/08/09 AMERICAN         09   01   AC6475   23144    030109                                   65.00
                             PR~4   PPE 02/08/09 AMERICAN         09   01   AC6475   23144    030109                                  125.00
                             CNTR #0191584870001 AT&T             09   01   AC6475   23145    030109                                  109.71
                             PTLVCA #3615523048 AT&T              09   01   AC6475   23146    030109                                   33 . 26
                             MAl NT/REPAIR SRVCS B&E ROOTER       09   01   AC6475   23147    030109                                  110.00
                             PARENT ACTIVITY BREAKTIME            09   01   AC647523148       030109                                  258.00
                             REIMB AIRFARE 2/17/09 BRETT          09   01   AC6475   23149    030109                                  860.40
                             BENEFICIARY SUPP BRETT               09   01   AC6475   23149    030109                                   10.52
                             EQUIP MAINT CIT TEHNOLOGY            09   01   AC6475   23150    030109                                  56S.38
                             EDNA RENT FEB 09 COE                 09   01   AC6475   23151    030109                                  300 . 00
                             EDNA RENT MAR 09 COE                 09   01   AC6475   23152    030109                                  300.00
                             NIXON #28500 CITY UTILITIES          09   01   AC6475   23153    030109                                   79 . 58
                             HLTSVLE   ~0313502   COH             09   01   AC6475   23154    030109                              1,044 . 75
                             TERRACE RENT MAR 09 COLLEGE          09   01   AC6475   23155    030109                              5,000.00
                             PTLVCA .12364300 COPL                09   01   AC6475   23156    030109                                  140.53
                             DEpOT   ~004044401   COV             09   01   AC6475   23157    030109                                  175.92
                             TRINITY .013013202 COV               09   01   AC6475   23158    030109                                  122.76
                             TRINITY   ~013015002   COY           09   01   AC6475   23159    030109                                   47.43
